Joseph A. DiRuzzo, III, Esq., CPA
954.615.1676
jd@diruzzolaw.com

December 15, 2020
Via Electronic Filing
Office of the Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Baxter v. United States of America, case no. 20-5133

Dear Clerk of Court:
Pursuant to the Court’s order of March 19, 2020, modifying the Court’s rules and practices in light
of COVID-19, Petitioner respectfully requests that distribution of the certiorari materials be delayed
from December 23, 2020, to January 6, 2021.
Petitioner respectfully submits that additional time to file a reply is needed due to COVID-19, which
has limited the ability of counsel to work in-office and made coordination with respect to preparing
the certiorari materials more difficult, especially in concert with the other professional obligations
of Petitioner’s counsel, which have likewise been subject to less than typically efficient practices.
Respondent’s counsel has indicated that Respondent does not object to this proposed extension.
Kind Regards,

/s/ Joseph A. DiRuzzo, III

Digitally signed by /s/ Joseph A. DiRuzzo, III
Date: 2020.12.15 16:19:39 -05'00'

Joseph A. DiRuzzo, III
JAD/dml
cc: counsel of record

401 East Las Olas Blvd., Suite 1400, Ft. Lauderdale, FL 33301
FAX/ 954.827.0340 WEB/ WWW.DIRUZZOLAW.COM

